BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition in 20-1824, Vincent Lucas
v. Tricia Moore, Marcia Phelps, Licking County, Ohio,
and The City of Newark, Ohio, was sent via Two Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Two Day and e-mail service to the following
parties listed below, this 2nd day of August 2021:
Vincent Lucas
PO Box 272
Amelia, OH 45102
(513) 294-8786
vincentl ucaslegal@gmail.com

Pro Se Petitioner
Daniel T. Downey
Counsel of Record
Fishel Downey Albrecht & Riepenhoff LLP
7775 Walton Parkway, Suite 200
New Albany, Ohio 43054
(614) 221-1216
ddowney@fisheldowney.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 2, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Cl« 3wvf-.

2--I 2/J d'(

JitvtJ, ~

Notary Public

'

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expir\,s

'ebruary 14, 2023

